NATIONAL CREDIT UNION ADMINISTRATION

     OFFICE OF INSPECTOR GENERAL




                MATERIAL LOSS REVIEW OF
                  WESTERN CORPORATE
                 FEDERAL CREDIT UNION

                        Report # OIG-10-19
                        November 16, 2010




                        William A. DeSarno
                        Inspector General



    Released by:                              Auditor-in-Charge:



   James Hagen                                Marvin Stith
   Asst IG for Audits                        Senior Auditor
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19




                                                CONTENTS


Section                                                                 Page



     I        EXECUTIVE SUMMARY                                          1

     II       BACKGROUND                                                 3

    III       OBJECTIVES, SCOPE AND METHODOLOGY                         11

    IV        RESULTS IN DETAIL                                         13

              A. Why NCUA Conserved Western Corporate Federal
                 Credit Union                                           13


              B. NCUA Supervision of Western Corporate Federal Credit
              Union                                                     30


   APPENDIX

     A                 NCUA Management Comments                         40




                                                                               i
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

Executive Summary

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
conducted a Material Loss Review of Western Corporate Federal Credit Union
(WesCorp). We reviewed WesCorp to: 1) determine why NCUA placed WesCorp under
federal conservatorship; and (2) assess NCUA‘s supervision of WesCorp. To achieve
these objectives, we:

      Analyzed NCUA examination and supervision reports and related
       correspondence;

      Interviewed NCUA management and staff;

      Reviewed NCUA policies and procedures and Statements of Financial Condition
       (Corporate 5310 Reports), and

      Reviewed WesCorp policies and procedures and specific investment-related
       documentation.

We did not analyze the role that third party conduct, including but not limited to, the
conduct of underwriters, issuers, and raters, may have played in WesCorp‘s losses,
which resulted in NCUA placing WesCorp under federal conservatorship and ultimately,
the losses to the NCUSIF and the Temporary Corporate Credit Union Stabilization
Fund.

We determined WesCorp‘s management and Board of Directors (management) did not
implement appropriate risk management practices to adequately limit or control
significant risks in its investment strategy. Specifically, although management invested
in high investment grade securities (AAA and AA), management implemented an
aggressive investment strategy with unreasonable limits in place that allowed for
excessive investments in privately-issued residential mortgage backed securities
(RMBS). Management‘s actions allowed a substantial investment portfolio of privately-
issued RMBS, resulting in a significant concentration risk, and left WesCorp increasingly
vulnerable to significant credit risk, market risk, and liquidity risk through the portfolio‘s
exposure to economic conditions in the residential real estate sector. WesCorp
management‘s actions contributed directly to conditions that resulted in NCUA placing
the corporate under federal conservatorship on March 20, 2009 and an expected loss to
the Temporary Corporate Credit Union Stabilization Fund (Stabilization Fund) of $5.59
billion.

In addition, we determined Office of Corporate Credit Unions‘ examiners (OCCU
examiners) did not adequately and aggressively address WesCorp‘s increasing
concentration of privately-issued RMBS and the increasing exposure of WesCorp‘s
balance sheet to credit, market, and liquidity risks. Specifically, we determined OCCU
examiners did not critique or respond in a timely manner to WesCorp‘s growing
concentrations of privately-issued RMBS in general and in particular RMBS: (1) backed

                                                                                            1
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

by higher risk mortgage collateral; (2) concentrated in California; and (3) issued,
originated, and serviced by Countrywide. This occurred because NCUA did not have
appropriate regulatory support in place--in the form of more specific investment
concentration limits--to address the growing and risky concentration. As a result, OCCU
examiners did not have the regulatory leverage to limit or stop the growth of WesCorp‘s
purchase of privately-issued RMBS, which would have likely mitigated WesCorp‘s
severely distressed financial condition and expected loss as a result of the extended
credit market dislocation, and thus averted NCUA‘s ultimate conservatorship of
WesCorp.

We recommended that NCUA provide corporate credit unions with more definitive
guidance on limiting investment portfolio concentrations by security type (i.e., agency-
backed versus non-agency backed securities), sector type (e.g., residential real estate
versus non-residential real estate), geography (e.g., less concentration in a single
state), by supporting collateral (e.g., sub-prime; Alt-A; prime; adjustable rate mortgages
that included payment option, interest only, or negative amortization features; etc.), and
by issuer, originator, and servicer.

Auditor’s Note: On September 24, 2010, the NCUA Board took several actions to
reform the corporate system under a stronger regulatory framework. One of those
actions was to finalize major revisions to Part 704, NCUA‘s rule governing corporate
credit unions. The final rule includes new limitations on corporate investments and
credit risks, as well as asset-liability management controls, so that high concentrations
of the types of investments that caused the corporate crisis will never be permitted
again.




                                                                                            2
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

Background

The Corporate Credit Union System

The corporate credit union system is a three-tiered system consisting of one wholesale
corporate credit union, 26 retail corporate credit unions, and nearly 7,600 natural person
credit unions. The wholesale corporate credit union (U.S. Central Federal Credit Union)
provided services to the 26 retail corporate credit unions, while the retail corporate
credit unions provide services to natural person credit unions, which serve the financial
needs of more than 90 million members, including individuals, associations and
businesses. Retail corporate credit unions provide essential support to natural person
credit unions through the delivery of liquidity, financial, payment, and correspondent
products and services.

A retail corporate credit union‘s primary responsibility is to serve as a liquidity depository
and facilitate the liquidity needs of its natural person credit union members. As such, an
inflow of deposits from member credit unions is ordinarily the primary source of liquidity
for retail corporate credit unions. Natural person credit unions generally invest their
excess liquidity when their members‘ loan demand is low and/or their members‘
deposits are high. Conversely, when their members‘ loan demand and/or deposit
withdrawals are high, natural person credit unions draw on funds previously invested for
liquidity or borrow funds as needed.

One of the many security types corporates can invest in are mortgage-backed securities
(MBS), which include residential mortgage-backed securities1 (RMBS) and commercial
mortgage-backed securities (CMBS)2. An investor in RMBS owns an interest in a pool
of mortgages, which serves as the underlying asset and source of cash flow for the
security. 3 (For details on RMBS, see the summary starting on page 4 below).

In mid 2007, the mortgage market faced a mortgage market disturbance and credit
crisis (credit market dislocation) which has persisted, leading to unprecedented
reevaluation and re-pricing of credit risk.4 As a result, there has been virtually no
market for residential mortgage backed securities other than at distressed sales prices.
With the reduction in lendable value of retail corporate credit union securities, typical
collateralized funding from sources such as Federal Home Loan Banks has been
impaired and is, consequently, a less stable option for corporate credit unions.5 In
addition, waning member confidence throughout this period of unprecedented economic
and market disruption resulted in abnormal deposit outflows (before NCUA implemented
the share guarantee program).
1
  A residential mortgage-backed security provides cash flows from residential debt such as mortgages, home-equity
loans and sub-prime mortgages.
2
  A CMBS is security backed by mortgages on commercial properties.
3
  Throughout the remainder of the report, we will use the term RMBS as synonymous with MBS.
4
  The credit market dislocation started with sub-prime mortgages. However, by the end of 2007 and into early 2008,
the mortgage problem spread to Alt-A loans, Option ARM loans, and to prime mortgage loans.
5
  The Federal Home Loan Bank (FHLB) system is a government-chartered but member-owned enterprise that works
to increase the liquidity of mortgage markets. The FHLB increases liquidity by advancing funds to institutions that
originate mortgages; which, in turn, collateralize the advances.

                                                                                                                  3
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19



Western Corporate Federal Credit Union (WesCorp) History

WesCorp began operations in 1969 as the California Central Credit Union, the nation‘s
first federally chartered central credit union organized to serve California credit unions
and credit union service organizations (CUSOs). The field of membership was
expanded in 1975 to include all credit unions and CUSOs in the then-NCUA Region VI,
becoming the nation‘s first regional corporate. Prior to obtaining a national field of
membership (FOM) in 1999, the FOM included federal and state-chartered credit unions
in Alaska, Arizona, California, Hawaii, Idaho, Montana, Nevada, Oregon, Washington
and territories of Guam and American Samoa. In 1998 and 2003, mergers were
accomplished with Idaho and Pacific corporates.

As the result of the credit market dislocation in mid 2007, WesCorp‘s ability to rely on
member deposits to fund liquidity needs became dependent on increased National
Credit Union Share Insurance Fund (―NCUSIF‖) guarantees. Furthermore, experts
retained by NCUA determined there were credit losses in the WesCorp portfolio that
were reasonably likely to be sustained at slightly over $6.5 billion.6 Considering the
difficulty in placing a specific value on the exact amount of the expected loss and
allowing for some variance in the expert's figure, NCUA indicated the amount of loss
could likely exceed all of WesCorp's existing capital.

The Board considered a number of possible actions regarding how to best address
WesCorp‘s problems, but determined there were no remaining viable alternatives other
than placing WesCorp into conservatorship under 12 U.S.C. §1786(h)(1)(A) of the
Federal Credit Union Act (FCU Act). On March 19, 2009, the NCUA Board approved
the conservatorship of WesCorp and placed it into conservatorship on March 20, 2009.
At the time of conservatorship, WesCorp was the largest of the retail corporate credit
unions, with nearly $25 billion in assets and servicing more than 1,000 credit unions.

At a September 24, 2010 meeting, the NCUA Board authorized the Director of the
Office of Corporate Credit Unions (OCCU) to involuntary liquidate WesCorp on a date to
be determined by the Director of OCCU, on grounds of insolvency pursuant to 12
U.S.C. 1787(a)(1)(A). The Director of OCCU determined that date to be
October 1, 2010. On October 5, 2010, NCUA announced the creation of Western
Bridge Corporate Federal Credit Union to assume the operations of WesCorp and
ensure stability and minimize disruption of service to member credit unions.

Summary of Residential Mortgage-Backed Securities (RMBS) Markets7

The process of creating an RMBS begins when an arranger packages generally
thousands of mortgage loans into a pool, and transfers them to a trust that will issue
6
 The credit loss figure includes losses from collateralized debt obligations.
7
 Much of this section includes information from the United States Securities and Exchange Commission. Office of
Compliance Inspections and Examinations, Division of Trading and Markets, and Office of Economic Analysis.
Summary Report of Issues Identified in the Commission Staff’s Examinations of Select Credit Rating Agencies,
USSEC, July 2008

                                                                                                                  4
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

securities collateralized by the pool. The trust purchases the loan pool and becomes
entitled to the interest and principal payments made by the borrowers. The trust
finances the purchase of the loan pool through the issuance of RMBS to investors. The
monthly interest and principal payments from the loan pool are used to make monthly
interest and principal payments to the investors in the RMBS. 8

The mortgage loans backing an RMBS are issued by a national network of lenders
consisting of mortgage bankers, savings and loan associations, commercial banks, and
other lending institutions. An investor can buy agency or non-agency RMBS:

        Agency RMBS are backed or issued by entities such as Government National
         Mortgage Association (GNMA or Ginnie Mae), Federal Home Loan Mortgage
         Corporation (FHLMC or Freddie Mac), and Federal National Mortgage
         Association (FNMA or Fannie Mae). Ginnie Mae guarantees investors the timely
         payment of principal and interest on loans originated through the Federal
         Housing Association (FHA), the Department of Veterans Affairs (VA), the Rural
         Housing Service (RHS) and Public and Indian Housing (PIH). Freddie Mac and
         Fannie Mae purchase mortgages forming pools and issue RMBS that carry a
         guarantee of timely payment of principal and interest to the investor. Unlike
         GNMA, their obligation is not backed by the full faith and credit of the U.S.
         government.9

        Non-agency RMBS are bought through securities firms or other financial
         institutions. They are often referred to as private-label paper10 and are not
         guaranteed by Fannie Mae, Freddie Mac, or Ginnie Mae. 11 Many non-agency
         RMBS are comprised of interest-only loans and adjustable rate mortgages,
         thereby exposing investors to borrowers‘ risk of default.12

A trust typically issues different tranches13 of RMBS offering a sliding scale of coupon
rates based on the level of credit protection afforded to the security. Credit protection is
designed to shield the tranche securities from the loss of interest and principal due to
defaults of the loans in the pool. The degree of credit protection afforded a tranche
security is known as its credit enhancement14 and is provided through several means:


8
  To find out what is in an RMBS, investors need to thoroughly assess the security, including the originator,
underwriter and borrowers--because when mortgage loans are nonperforming, the actual loss is passed on to
investors.
9
  Fidelity Investments. ―Mortgage-Backed Securities Product Overview‖. Fidelity.com. August 5, 2010
<http://personal.fidelity.com/products/fixedincome/pombs.shtml>
10
   Unless otherwise noted, we refer to these ―private-label‖ securities as non-agency or privately-issued.
11
   Unlike with agency-backed securities, timely payment of principal and interest to investors in privately-issued
securities is not guaranteed.
12
   RMBS not backed by the federal government generally carry a higher risk of default than RMBS backed by the
federal government, which carry only some or no risk of default.
13
   A tranche is one of the classes of debt securities issued as part of a single bond or instrument. Securities often are
issued in tranches to meet different investor objectives for portfolio diversification. Each tranche is paid off
consecutively; as one bond matures, the next is paid down in a steppingstone progression.
14
   Credit enhancements are techniques used to improve the credit rating of securities, generally to get investment
grade ratings from a bond rating agency and to improve the marketability of the securities to investors.

                                                                                                                       5
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

      The primary source of credit enhancement is subordination, which creates a
       hierarchy of loss absorption among the tranche securities. For example, if a trust
       issued securities in 10 different tranches, the first (or senior) tranche would have
       nine subordinate tranches, the next highest tranche would have eight
       subordinate tranches and so on down the capital structure. Any loss of interest
       and principal experienced by the trust from delinquencies and defaults in loans in
       the pool are allocated first to the lowest tranche until it loses all of its principal
       amount and then to the next lowest tranche and so on up the capital structure.
       Consequently, the senior tranche would not incur any loss until all the lower
       tranches have absorbed losses from the underlying loans.

      A second form of credit enhancement is over-collateralization, which is the
       amount that the principal balance of the mortgage pool exceeds the principal
       balance of the tranche securities issued by the trust. This excess principal
       creates an additional ―equity‖ tranche below the lowest tranche security to absorb
       losses. In the example above, the equity tranche would sit below the tenth
       tranche security and protect it from the first losses experienced as a result of
       defaulting loans.

      A third form of credit enhancement is excess spread, which is the amount that
       the trust‘s monthly interest income exceeds its monthly liabilities. Excess spread
       is comprised of the amount by which the total interest received on the underlying
       loans exceeds the total interest payments due to investors in the tranche
       securities. This excess spread can be used to build up loss reserves or pay off
       delinquent interest payments due to a tranche security.

A key step in the process of creating and ultimately selling an RMBS is the issuance of
a credit rating for each of the tranches issued by a trust. The arranger of the RMBS
initiates the ratings process by sending the credit rating agency a range of data on each
of the loans to be held by the trust (e.g., principal amount, geographic location of the
property, credit history and FICO score of the borrower, ratio of the loan amount to the
value of the property and type of loan: first lien, second lien, primary residence,
secondary residence), the proposed capital structure of the trust and the proposed
levels of credit enhancement to be provided to each RMBS tranche issued by the trust.
A lead analyst at the rating agency is assigned responsibility for analyzing the loan pool,
proposed capital structure, and proposed credit enhancement levels, and for ultimately
formulating a ratings recommendation for a rating committee. The credit rating for each
rated tranche indicates the credit rating agency‘s view as to the creditworthiness of the
debt instrument. Creditworthiness is assessed in terms of the likelihood that the issuer
would default on its obligations to make interest and principal payments on the debt
instrument.

By regulation, corporate credit unions are only allowed to invest in highly rated
securities. Corporate credit unions have traditionally used these securities as part of
their overall balance sheet management in meeting their member liquidity needs.
Historically, the securities could be readily sold in the market or used for collateralized

                                                                                              6
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

borrowing to obtain liquidity, and the values of the securities had experienced little or no
loss.15

Securities and Exchange Commission (SEC) Findings Regarding Nationally
Recognized Statistical Rating Organizations (NRSRO) 16

Beginning in 2007, delinquency and foreclosure rates for sub-prime mortgage loans in
the United States dramatically increased, creating turmoil in the markets for RMBS
backed by such loans. The rating agencies‘ performance in rating these structured
finance products raised questions about the accuracy of their credit ratings generally, as
well as the integrity of the ratings process as a whole. In August 2007, the SEC initiated
examinations of three credit rating agencies (NRSROs) -- Fitch Ratings, Ltd. (―Fitch‖),
Moody‘s Investor Services, Inc. (―Moody‘s‖), and Standard & Poor‘s Ratings Services
(―S&P‖) -- to review their role in the turmoil in the sub-prime mortgage-related securities
markets.

The SEC‘s examination review generally covered a period starting from January 2004
through July 2008 when the report was issued. We identified the following three key
findings from the SEC report that highlighted flaws in the RMBS ratings process:

        There was no requirement that a rating agency verify the information contained in
         RMBS loan portfolios presented to it for rating. Additionally, rating agencies were
         not required to insist that issuers perform due diligence, and they were not
         required to obtain reports concerning the level of due diligence performed by
         issuers. Each rating agency publicly disclosed that it did not engage in any due
         diligence or otherwise seek to verify the accuracy or quality of the loan data
         underlying the RMBS pools they rated during the review period. Each rating
         agency‘s ―Code of Conduct‖ clearly stated that it was under no obligation to
         perform, and did not perform, due diligence. Each agency also noted that the
         assignment of a rating is not a guarantee of the accuracy, completeness, or
         timeliness of the information relied on in connection with the rating. The rating
         agencies each relied on the information provided to them by the sponsor of the
         RMBS. They did not verify the integrity and accuracy of such information as, in
         their view, due diligence duties belonged to the other parties in the process.
         They also did not seek representations from sponsors that due diligence was
         performed.

        Each of the NRSROs examined used the ―issuer pays‖ model, in which the
         arranger or other entity that issues the security is also seeking the rating, and
         pays the rating agency for the rating. The conflict of interest inherent in this
         model is that rating agencies have an interest in generating business from the
         firms that seek the rating, which could conflict with providing ratings of integrity.

15
   NCUA. Corporate Credit Union System Strategy, January 2009 (Letter No. 09-CU-02)
16
   United States Securities and Exchange Commission. Office of Compliance Inspections and Examinations, Division
of Trading and Markets, and Office of Economic Analysis. Summary Report of Issues Identified in the Commission
Staff’s Examinations of Select Credit Rating Agencies, USSEC, July 2008

                                                                                                               7
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

         NRSROs are required to establish, maintain and enforce policies and procedures
         reasonably designed to address and manage conflicts of interest. However,
         although each rating agency had policies and procedures restricting analysts
         from participating in fee discussions with issuers, these policies still allowed key
         participants in the ratings process to participate in fee discussions.

        While NRSROs were not required under the law to perform surveillance, a rating
         agency would generally monitor the accuracy of its ratings on an ongoing basis in
         order to change the ratings when circumstances indicate that a change is
         required. This process is generally called ―monitoring‖ or ―surveillance,‖ and
         each rating agency charges issuers, up front or annually, ratings surveillance
         fees. However, weaknesses existed in the rating agencies‘ surveillance efforts –
         lack of resources, poor documentation, and lack of procedures.

RMBS Collateral: Alt-A and Sub-Prime Mortgages

Within the U.S. mortgage industry, different mortgage products are generally defined by
how they differ from mortgages guaranteed by the Government-Sponsored Enterprises
(GSEs) Fannie Mae and Freddie Mac. Sub-prime borrowers generally do not qualify for
traditional loans because of their low credit ratings or other factors that suggest that
they have a reasonable chance of defaulting on the debt repayment.

In addition, industry experts indicated that the growing popularity of nontraditional loans
created a rise in so-called Alt-A RMBS. As a result, far more RMBS are supported by
borrowers who are considered riskier than borrowers with traditional ―prime‖ credit, yet
not as risky as sub-prime borrowers.17 The biggest growth within non-agency RMBS
had been in the area of Alt-A. There is no true industry standard for Alt-A; Alt-A pools
differ depending on programs and originators. However, there are numerous factors
that might cause a mortgage to be classified as "alternatives" to the standard of
conforming, GSE-backed mortgages. Following are a few of the more important factors
characterizing Alt-A mortgages:

        Reduced borrower income and asset documentation (e.g., "stated income,"
         "stated assets," "no income verification"). Reduced documentation mortgage
         loans are intended to assist borrowers obtain mortgage financing when their
         income, employment, or assets are difficult to verify. For example:

             o With stated income mortgages, a borrower‘s income is stated on the
               application, but is not verified.

             o No documentation mortgages are loans in which employment, income, or
               assets are not included on the loan application.


17
  Lenders may make subprime loans to borrowers who would not ordinarily qualify for credit if customary
underwriting standards were applied. To offset the increased risk that these borrowers might default, lenders charge
higher interest rates than they offer to creditworthy borrowers and assess additional fees.

                                                                                                                   8
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

      Borrower debt-to-income ratios that are above what Fannie or Freddie will allow
       for the borrower credit, assets, and type of property being financed.

      Credit history with too many problems to qualify for an "agency" loan, but not so
       many as to require a sub-prime loan.

      Loan to value (LTV) ratios (percentage of the property price being borrowed) are
       above agency limits for the property, occupancy, or borrower characteristics
       involved.

Alt-A and sub-prime differ in that, generally speaking, while a sub-prime borrower would
suffer from exceptionally weak credit, income or asset characteristics, an Alt-A borrower
would have a sufficient financial profile to qualify for a "conforming" mortgage, if not for
one of the above factors.

RMBS Collateral: Home Equity Loans, Exotic Adjustable Rate Mortgages, and Non-
Traditional Mortgages

In May 2005, NCUA issued guidance to its Federally Insured Credit Unions regarding
managing credit risk in home equity lending. NCUA indicated that (1) home equity
loans were typically long-term with interest-only features that did not require
amortization of principal for a protracted period; (2) home equity lines of credit
(HELOCs) were inherently vulnerable to rising interest rates; and (3) with the rise in
home values and demand for home equity lending, many financial institutions relaxed
underwriting standards associated with these loans, such as higher loan-to-value and
debt-to-income ratios.

In October 2005, NCUA also issued guidance to its Federally Insured Credit Unions
regarding generally increasing risks in mortgage lending. NCUA indicated there was (1)
a demand for more exotic adjustable rate mortgages, which may increase credit risk in
an environment of increasing interest rates and flattening or declining home
appreciation; and (2) a trend toward liberalized underwriting standards, which increases
credit risk. NCUA highlighted that (a) lenient credit and underwriting standards
combined with higher LTVs, interest only, or negative amortization loans and rapid
home value appreciation, could result in increased default rates; and (b) higher LTVs
combined with lower credit scores results in increased defaults.

In October 2006, NCUA issued additional guidance to its Federally Insured Credit
Unions in regards to: (1) managing risks associated with open-end HELOCs that
contain interest-only features; and (2) addressing risks associated with the growing use
of non-traditional mortgage products—including interest-only and payment option
adjustable-rate mortgages--that allow borrowers to defer payment of principal and,
sometimes, interest.




                                                                                           9
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

Corporate Credit Union Examinations

The NCUA Office of Corporate Credit Unions (OCCU) fulfills its mission by promoting
and ensuring the safety and soundness of the Corporate Credit Union System (System),
principally through a program of continual supervision. Supervision includes, but is not
limited to, the on-site examination of corporate credit unions resulting in an examination
report.18

OCCU‘s overall supervision goal is to ensure the safety and soundness of the System
by: (1) continuously evaluating and supervising the financial condition and performance
of individual corporates and their service organizations; and (2) reporting those
conditions to the NCUA Board in a timely manner. The key element in accomplishing
OCCU‘s goal is the timely identification and resolution of any problem or condition that
might have a material impact on a corporate, the System, or the NCUSIF. Annual
examinations are required and performed for all corporates. The scope of each
examination and supervisory contact is determined by the examiner-in-charge and the
Corporate Field Supervisor, targeting problems and high-risk areas.

Corporates qualifying for Type III supervision19 will be assigned a capital markets
specialist (CMS20) from OCCU on a full-time basis.21 Maintaining an on-site presence
promotes interaction with the corporate‘s staff and allows the CMS to maintain a
working knowledge of the corporate‘s operations, especially in the capital markets areas
(investments, asset and liability management, risk monitoring, etc.). The knowledge
gained through on-site supervision allows the CMS to more effectively monitor and
evaluate financial changes.

NCUA‘s Office of Capital Markets Role in Evaluating Investment Activity

The Office of Capital Markets (OCM) develops agency policies and procedures related
to credit union investments and asset liability management. OCM also assists
examiners in evaluating investment and asset and liability management issues in credit
unions and provides expert advice to the Board on investment issues.

Auditor’s Note: We reviewed OCM‘s role in the examination of WesCorp during the July
2003 through June 2007 examinations and noted that prior to the June 2007
examination, OCM‘s assistance was in reviewing Asset/Liability Management. The
June 2007 examination marked the first involvement of OCM staff in reviews specifically

18
   The goal of the on-site supervision presence is to develop and maintain a thorough understanding of the operations
and risk profiles of large complex corporates.
19
   Corporates which qualify for Type III supervision generally have billions of dollars in assets, and/or have expanded
powers in excess of Part I and exercise their approved powers in a significant and assertive manner. In addition,
Type III corporates have complex and innovative operations, and/or have a significant impact in the marketplace and
on the corporate and/or credit union system, and/or present unusual or unique examination and supervision
problems, which cannot be adequately addressed by Type I or Type II supervision.
20
   Regarding new investment strategies, the CMS is responsible for monitoring the corporate‘s investment portfolio to
identify changes in and/or variances from investment strategies and assessing the impact of changing economic
conditions.
21
   WesCorp met the requirements for Type III supervision.

                                                                                                                   10
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

addressing the concentration and credit quality of WesCorp‘s investment portfolio,
which was around the time of the market dislocation.

Objectives, Scope and Methodology

The FCU Act requires the NCUA Office of Inspector General (OIG) to conduct a
material loss review (MLR) of an insured credit union if the loss to the NCUSIF22
exceeds $10 million and an amount equal to 10 percent of the total assets of the credit
union at the time at which the Board initiated assistance or was appointed liquidating
agent.23, 24 NCUA notified the OIG of a loss reserve for WesCorp of $5.59 billion.
Consequently, in accordance with the FCU Act and Chapter 3 of the NCUA Special
Assistance Manual, we initiated a MLR.

The objectives of our review were to: (1) determine why NCUA placed WesCorp under
federal conservatorship; and (2) assess NCUA‘s supervision of the corporate. To
accomplish our review, we conducted fieldwork at NCUA‘s headquarters in Alexandria,
VA. The scope of our review covered the period from NCUA‘s July 2003 examination of
WesCorp through October 2010 when NCUA created the Western Bridge Corporate
Federal Credit Union.

We conducted this review from March 2010 to November 2010 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To determine the cause of WesCorp‘s conservatorship and assess the adequacy of
NCUA‘s supervision we:

        Analyzed NCUA examination and supervision reports and related
         correspondence;

        Interviewed NCUA management and staff;



22
   On May 20, 2009, Congress enacted the Helping Families Save Their Homes Act, which amended the Federal
Credit Union Act to create the Temporary Corporate Credit Union Stabilization Fund (Stabilization Fund). The
Stabilization Fund established a process for attaining funds to pay costs associated with the corporate credit union
stabilization by borrowing from the U.S. Department of the Treasury and repaying the borrowed funds with
assessments of all federally insured credit unions over a seven year period. One of the costs incurred to stabilize the
corporate credit unions included guaranteeing the natural person credit unions‘ deposits in the corporates. The
payment of the insured amounts in a liquidating corporate credit union is primarily a liability of the NCUSIF. However,
the Stabilization Fund legislation allows for the NCUA Board to use the Stabilization Fund to make the payment.
23
   See section 216 of the FCU Act, 12 U.S.C. § 1790d(j).
24
   With the passage of the ―Dodd-Frank Wall Street Reform and Consumer Protection Act,‖ Pub. L. no. 111-203, 124
Stat. 1376 (2010), the threshold loss amount that would require the OIG to conduct a MLR was increased from $10
million to $25 million.

                                                                                                                   11
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

      Reviewed NCUA policies and procedures and Statements of Financial Condition
       (Corporate 5310 Reports), and

      Reviewed WesCorp policies and procedures and specific investment-related
       documentation.

We did not analyze the role that third party conduct, including but not limited to, the
conduct of underwriters, issuers, and raters, may have played in WesCorp‘s losses,
which resulted in NCUA placing WesCorp under federal conservatorship and ultimately,
the losses to the NCUSIF and the Temporary Corporate Credit Union Stabilization
Fund.

We used computer-processed data from NCUA‘s Corporate 5310 Reports. We did not
test the controls over these systems. However, we relied on our analysis of information
from management reports, correspondence files, and interviews to corroborate data
obtained from these systems to support our audit conclusions.




                                                                                     12
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

Results in Detail

We determined WesCorp management‘s actions contributed directly to conditions that
resulted in NCUA placing the corporate under federal conservatorship and an expected
loss to the Stabilization Fund of $5.59 billion. In addition, we determined Office of
Corporate Credit Unions‘ examiners (OCCU examiners) would have likely been able to
mitigate these conditions and the expected loss to the Stabilization Fund had
appropriate regulatory support--in the form of more specific investment concentration
limits--been available to allow the OCCU examiners to take stronger and more
aggressive supervisory actions over WesCorp regarding its investment strategy.

A. Why NCUA Conserved Western Federal Corporate Credit Union

WesCorp‘s management and Board of Directors (management) did not implement
appropriate risk management practices to adequately limit or control significant risks in
its investment strategy. Specifically, although management invested in high investment
grade securities (AAA and AA), management implemented an aggressive investment
strategy with unreasonable limits in place that allowed for excessive investments in
privately-issued residential mortgage backed securities25 (RMBS). Management‘s
actions allowed a substantial investment portfolio of privately-issued RMBS, resulting in
a significant concentration risk,26 and left WesCorp increasingly vulnerable to significant
credit risk,27 market risk,28 and liquidity risk29 through the portfolio‘s exposure to
economic conditions in the residential real estate sector.

We determined WesCorp management created significant concentration risk, credit risk,
market risk, and liquidity risk by overexposing its investment portfolio to privately-issued
securities (1) in a single market sector; (2) in a single geographic real estate market; (3)
in a higher risk subordinated class; and (4) collateralized largely with higher risk
underlying residential mortgage collateral.

Table 1 summarizes selected annual WesCorp financial information for the periods
between 2006 and 2008:


25
   An RMBS provides cash flows from residential debt such as mortgages, home-equity loans and sub-prime
mortgages.
26
   Concentration risk is the risk associated with having excessive exposure to securities that have related market
and/or credit risk. Concentration in market risk could include, but is not limited to, excessive exposure to interest rate,
basis, embedded option and/or liquidity risks. Concentration in credit risk usually includes excessive exposure to
certain industries, groups, or individuals.
27
   Credit risk is: (1) Exposure to loss as a result of default on a debt, swap or some other counterparty instrument; (2)
Exposure to loss as a result of a decline in market value stemming from a credit downgrade of an issuer or
counterparty; (3) A component of return variability resulting from the possibility of an event of default; or (4) A change
in the market‘s perception of the probability of an event of default (affecting spreads).
28
   Market risk is the risk that the value of a portfolio, either an investment portfolio or a trading portfolio, will decrease
due to the change in value of the market risk factors.
29
   Liquidity risk is the risk that funds may not be available to meet cash outflows when they arise. This may arise
because of insufficient cash flow or because the assets designated as cash equivalents are not able to be sold
quickly without causing a large decline in the market value. Liquidity risk also can become significant if the financial
condition of an institution is deteriorating and members and creditors begin to withdraw or demand payment of their
funds.

                                                                                                                          13
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

                           12/31/2008              12/31/200830               12/31/2007               12/31/2006
                           (Includes OTT)
Assets                    $14,099,635,919          $24,390,946,793           $32,517,008,547          $30,046,960,034
     Investments          $11,411,736,680          $21,739,260,333           $29,311,383,241          $26,506,614,189
Shares                    $15,733,605,946          $15,733,605,945           $19,617,084,013          $18,554,810,421
Unrealized
                         ($4,256,284,307)          ($1,665,757,902)           (727,047,797)             ($5,585,252)
Gains(Losses)
Retained
                         ($5,791,653,875)            $803,063,608             $752,496,988             $679,648,940
Earnings
Total Capital            ($5,791,653,875)           $1,941,537,078           $2,008,283,790           $1,696,513,959
Net Economic
            31     ($10,858,230,000)    ($1,889,511,000)                     $1,048,691,000           $1,721,900,000
Value (NEV)
Table 1: Selected WesCorp Financial Information

Concentration Risk, Credit Risk, Market Risk and Liquidity Risk Associated with
WesCorp’s Investment Portfolio

WesCorp‘s investment portfolio includes a substantial concentration of privately-issued
securities directly linked to the residential real estate mortgage sector. WesCorp‘s
investment portfolio includes not only Mortgage-Related Securities32 (MRS) (as defined
by the SEC), but also RMBS collateralized with first and second lien mortgages, Asset-
Backed Securities33 (ABS34) collateralized with first and second lien mortgages, ABS
backed by home equity loans and home equity lines of credit secured by first lien and
second lien mortgages, and Collateralized Debt Obligations35 (CDOs) backed by
securities collateralized with residential real estate mortgages. 36,37 In addition, this
portfolio has a large concentration of investments with underlying collateral (1) in a
single state‘s residential real estate market; (2) originated38 and serviced39 by a single
30
   This December 2008 data is unaudited and does not include other than temporary impairments.
31
   NEV measures the fair value of assets less the fair value of liabilities.
32
   A privately-issued security secured by real estate upon which is located a dwelling, mixed residential and
commercial structure, residential manufactured home, or commercial structure, that is rated in one of the two highest
rating categories by at least one nationally-recognized statistical rating organization.
33
   A security that is primarily serviced by the cash flows of a discrete pool of receivables or other financial assets that
by their terms convert into cash within a finite time period plus any rights or other assets designed to assure the
servicing or timely distribution of proceeds to the security holders. This definition excludes ―mortgage related
securities.‖
34
   Bonds backed by high quality mortgage loans are considered Mortgage Backed Securities (MBS). Bonds backed
by home equity loans and other home loans less than high quality are considered Asset Backed Securities.
35
   A CDO is an investment-grade security backed by a pool of bonds, loans and other assets. It provides a means to
create fixed-income securities from a pool of diversified debt instruments with differing yields and risks and allows the
issuance of securities with a higher credit rating than the securities used to back the CDOs.
36
   For the purposes of this review, we will refer to this portfolio of securities collectively as RMBS unless otherwise
indicated.
37
   A September 17, 2009 report published by Standard & Poor‘s (S&P)--Commentary Report: Mortgage-Related
Losses Aren’t Over for Bond Issuers--addressed the deterioration of Alternative-A (Alt-A), sub-prime, closed-end
second (CES), and home equity line of credit (HELOC) mortgages backing the 2005–2007 MBS vintages. The report
indicated the industry's RMBS exposure to HELOC and CES products accounted for the majority of S&P‘s projected
RMBS loss, accounting for 76.6 percent of total RMBS projected losses.
38
   A mortgage originator is an institution or individual that works with a borrower to complete a mortgage transaction.
A mortgage originator can be either a mortgage broker or a mortgage banker, and is the original mortgage lender.
39
   Mortgage servicing is the collection of monthly payments and penalties, record keeping, payment of insurance and
taxes, and possible settlement of defaults.

                                                                                                                        14
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

financial institution; and (3) collateralized largely with higher risk underlying residential
mortgages.

NCUA ‗Rules and Regulations‘ requires:

         A corporate credit union‘s board of directors to be responsible for approving a
          corporate‘s comprehensive written strategic plans and policies; and

         Corporates to operate according to a credit risk management policy that is
          commensurate with the investment risks and activities it undertakes. At a
          minimum, corporates must implement a credit risk management policy that
          addresses concentrations of credit risk (e.g., originator of receivables, insurer,
          industry type, sector type, and geographic).

In addition, NCUA requires that all investments, other than in a corporate credit union or
CUSO, must have an applicable credit rating from at least one nationally recognized
statistical rating organization (NRSRO).

NCUA guidance40 advises that:

         A credit rating is not a substitute for prudent due diligence and should only be
          considered as one factor in an investment decision. The ratings and other
          opinions issued by rating agencies are not recommendations to buy securities
          and there is not a warranty on the accuracy, timeliness, completeness or fitness
          of the information provided.

         Credit Analysts are not expected to possess greater insights than rating
          agencies, but they are expected to understand the implications and conclusions
          of a rating agency‘s research and form an independent judgment.

         There is a danger corporates may focus upon high credit ratings and therefore
          consider default improbable. Corporates need to consider how concentrations of
          credit risk will change when market or credit conditions change. Failing to
          recognize the impact of credit events other than an event of default ignores a
          major component of risk.

         Credit risk managers must be mindful that credit ratings are generally a lagging
          indicator.

         In order for corporates to best manage credit risk exposure, management should
          be predisposed to take rational and timely steps towards rebalancing or reducing
          credit risk in the portfolio as needed.



40
     NCUA Corporate Examiner‘s Guide

                                                                                               15
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

         The Asset/Liability Committee (ALCO) and board of directors have a fiduciary
          responsibility to be aware of the risk assumed by management and be assured
          that management is actively managing risk.

         Prudent investment portfolio management practices, such as managing
          concentration risk and maintaining diversification, are as important for corporates
          as for other investors.

         Failure to manage concentration risk or adequately diversify the portfolio may
          give rise to excessive liquidity risk. Corporates must be especially mindful of
          liquidity when making investment decisions since investment portfolio(s) are the
          primary source of funds to meet ongoing and contingent liquidity demands.

Concentration of Privately-Issued RMBS

We determined from a sample of WesCorp securities data as of December 31, 2008,
that nearly 70% ($15.8 billion) of WesCorp‘s $22.7 billion investment portfolio (face
value) was comprised of privately-issued RMBS.41 Specifically, we determined the
following concentrations of privately-issued security types and their respective collateral
backing the RMBS portfolio (Table 2):

                                                     42                43                         Percentage
         Security Type            Actual/Target           Collateral              $ Value
                                                                                                  of Portfolio
 ABS HELOCS                    Home Equity and HELOC Mortgages
                               secured by 1st lien and 2nd lien residential
                               real estate                                    $   23,755,670.00     0.10%
 ABS Home Equity
 2nds                          2nd lien mortgages and HELOCs                  $   26,707,138.00     0.12%
 ABS Sub-Prime                 Mortgages secured by 1st lien and 2nd lien
                               residential real estate                        $4,145,760,111.00     18.28%
 CDO-ABS                       66% to 100% of underlying securities are
                               backed by residential real estate
                               mortgages                                      $ 542,932,316.00      2.39%
 MRS-Alt-A                     Residential real estate mortgage-related
                               security (MRS)                                 $3,285,292,186.00     14.49%
 MRS-Alt-A Option ARM          Residential real estate mortgage-related
                               security                                       $6,220,955,355.00     27.43%
 MRS-Prime-Jumbo               Residential real estate mortgage-related
                               security                            $1,014,802,278.00  4.47%
 MRS-Prime-Jumbo         Residential real estate mortgage-related
 Option ARM              security                                  $ 521,948,705.00   2.30%
 Total                                                            $15,782,153,759.00 69.59%
Table 2: WesCorp Privately-Issued RMBS Types and Collateral as of December 31, 2008

Consequently, since the mortgage market disturbance and credit crisis (credit market
dislocation) began in mid 2007, WesCorp has been unable to divest of its substantial
RMBS holdings without incurring significant losses. Ultimately, the lack of a viable

41
   The WesCorp financial data as of December 31, 2008 was unaudited and did not include other than temporary
impairments.
42
   Only one of the CDO‘s we sampled indicated ‗targeted‘ asset classes. Collateral for the remaining CDOs and all
other securities provided actual data. We reviewed 100% of the CDOs.
43
   The description of collateral based on data available in the pre-purchase Credit Memoranda.

                                                                                                                 16
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

market for RMBS led to NCUA‘s action to: (1) place WesCorp into federal
conservatorship pursuant to 12 U.S.C. § 1786(h)(1) based on the need to conserve
WesCorp‘s assets, provide liquidity to its member credit unions, safeguard the interests
of member credit unions, protect the NCUSIF; and (2) provide Special Assistance to
WesCorp under section 208 of the FCU Act, 12 U.S.C. § 1788.

WesCorp management allowed for significant concentration limits in the privately-issued
mortgage-backed real estate sector as illustrated by the following maximum
concentration limits (as a percentage of capital) between 2003 and 2007 for each
private-label44 investment type (Table 3):

                                                              Percentage of Capital
                                                                    by Year
      Private Label                     2003              2004             2005             2006             2007
      Investment Type -
                                     (Policy as of     (Policy as of    (Policy as of    (Policy as of    (Policy as of
      Rating                           July 03)          Dec 04)          Nov 05)          Nov 06)          Dec 07)
      ABS/MRS - AAA Rated             1500%             1500%            1500%            1500%            1500%

      ABS/MRS - AA Rated               100%              250%             350%             350%             350%

      CDOs - AAA Rated                   NA                NA             100%             100%             100%

     Table 3: Maximum Allowable WesCorp Concentrations of Private Label Securities per
     WesCorp Policy

It was evident throughout NCUA examinations that WesCorp was in fact pursuing an
aggressive investment strategy to accumulate RMBS. Following are findings or
observations by OCCU examiners and the OIG regarding WesCorp‘s investment
strategy between 2003 and 2007 that contributed to its excessive concentrations of
privately-issued RMBS:

        OCCU examiners noted during the July 2003 examination that although
         WesCorp was maintaining a relatively low-risk investment portfolio that was
         diversified by issuer as well as concentrated with AAA rated securities, WesCorp
         increased its exposure to ―private mortgage related obligations‖ by 66 percent
         from $4.1 billion to $6.8 billion between May 2002 and April 2003.

        We noted that as of July 2003, WesCorp‘s exposure to privately-issued MRS
         ($7.7 billion) was 33 percent of its total $23.2 billion in investments and 30
         percent of its total $25.3 billion in assets. In addition, the MRS investments were
         valued at more than 500 percent of WesCorp‘s capital, and total investments
         were valued at just over 1,600 percent of capital.



44
  Private Label is the term WesCorp uses in its policies. A ―private-label‖ security is synonymous with a ―non-
agency‖ security.

                                                                                                                    17
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

      During the August 2004 examination, OCCU examiners indicated:

           o The most notable trend at WesCorp since April 2003 had been a
             continued increase in private mortgage related issues, and a reduction in
             U.S. Central obligations and government and agency mortgage-related
             issues.

           o WesCorp‘s investment strategy was targeting a portfolio size of
             approximately $18 billion. We noted that as of August 2004, WesCorp‘s
             total investments were already valued at $21 billion.

           o WesCorp had limited the purchase of fixed rate securities because
             management felt returns were not adequate given the market outlook.

           o WesCorp targeted its purchases towards RMBS, commercial MBS,
             domestic and foreign ABS, and collateralized debt obligations.

      During the July 2005 examination, OCCU examiners noted:

           o WesCorp‘s investment and asset-liability management strategy during
             most of the period had been to target a portfolio size of $18 to $19 billion.
             We noted total investments had increased nearly 8 percent since the last
             examination to $22.9 billion, valued at nearly 1400 percent of capital.

           o Although WesCorp had taken steps to minimize overall credit exposure,
             including diversification across geographic areas and issuers, its
             investments were skewed heavily toward real estate secured products.
             The most significant portfolio change was a continued increase in private
             mortgage-related issues - up 54 percent since April 2003.

      During the July 2006 examination, OCCU examiners indicated:

           o WesCorp‘s strategy was to target a $20 billion investment portfolio. We
             noted that total investments were $22 billion and were valued at just over
             1300 percent of capital.

           o WesCorp had continued its trend of increasing exposure to private-label
             MRS. We noted WesCorp‘s privately-issued MRS investments accounted
             for 60 percent of its total investment portfolio.

      During the June 2007 examination, OCCU examiners and OCM staff indicated:

           o WesCorp‘s investment target portfolio was increased from $20 billion to
             $26 billion due to on-going inflows of member funds and corresponding
             increases in member capital share deposits. WesCorp‘s investment
             portfolio had grown to $29.49 billion since the July 2006 examination.

                                                                                        18
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19



           o Private label MRS had grown to $20.11 billion, accounting for 69 percent
             of the total investment portfolio. We noted this represented almost 1100
             percent of WesCorp‘s $1.9 billion in capital.

      We noted that by July 2007, WesCorp‘s privately-issued MRS ($19.9 billion)
       represented 71 percent of its total investments of $27.9 billion and 64 percent of
       its total $31.3 billion in assets.

WesCorp‘s aggressive investment strategy resulted in increasing concentrations of
privately-issued MRS between 2003 and 2007. Chart 1 below illustrates the growth and
concentration of WesCorp‘s MRS in relation to total investments and total assets
between July 2003 and December 2008. WesCorp‘s privately-issued MRS peaked at
$20.11 billion in June 2007.

                     Chart 1: Concentrations of Privately Issued Mortgage-
                         Related Securities Compared to Total Investments and
                                     Assets ($ Billions)
         Privately Issued Mortgage-Related Securities    Total Investments (Book Value)   Total Assets




                                                                          $30.99 $29.31
                                       $29.49 $27.93 $31.52 $30.13 $28.34
                                                                                        $26.24
       $23.20
                $21.28 $22.91 $22.08

                                                                                                 $11.41




                                                                                                          19
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19




Chart 2 below illustrates WesCorp‘s privately-issued MRS and total investments as a
percentage of total capital during the same period.

            Chart 2: Ratios of Privately-Issued Mortgage-Related Securites and
                                   Assets to Capital (%)
                      Privately Issued MRS to Capital      Total Investments to Total Capital




We believe that WesCorp management implemented an aggressive investment strategy
(i.e, had high limits) in an effort to increase its profitability and become more
competitive. Specifically:

        In September 2004, GAO issued a report indicating that corporates were facing
         an increasingly challenging business environment that would potentially stress
         their overall financial condition.45 Since 2000, a large influx of deposits, coupled
         with low returns on traditional corporate investments, had constrained earnings
         and caused a downward trend in corporates‘ overall profitability. To generate
         earnings, corporates increasingly targeted more sophisticated and potentially
         riskier investments.

Because of this significant concentration of privately-issued securities linked to the
residential real estate market without the backing of the federal government, WesCorp
left its balance sheet highly vulnerable to economic conditions in the residential real
estate market. As a result, WesCorp was exposed to significantly increased credit risk,
market risk and liquidity risk.


45
  Report to the Ranking Minority Member, Committee on Banking, Housing, and Urban Affairs, U.S. Senate
"Corporate Credit Unions: Competitive Environment May Stress Financial Condition, Posing Challenges for NCUA
Oversight" (GAO-04-977, September 2004)

                                                                                                               20
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

Concentration of Privately-Issued RMBS Collateralized with Mortgages in a Single
Residential Real Estate Market

We determined that with most of WesCorp‘s investment purchases, a significant portion
of the underlying mortgage collateral for each purchase was located in California.
WesCorp‘s investment policy provided that up to 75 percent of the underlying collateral
of domestic mortgage-related securities in any one state was adequate geographic
diversification.

We reviewed credit memoranda WesCorp staff used to justify the purchase of 176
RMBS WesCorp held as of December 31, 2008. We determined 98 percent (172) of
the securities included underlying residential mortgage collateral in California, ranging
from 16 percent to 75 percent, and averaging 50 percent per security. More
significantly, WesCorp reported that as of June 2007 (at its peak around the start of the
credit market dislocation), the market value of collateral concentrated in California was
valued at more than 475 percent of WesCorp‘s capital. The value of privately-issued
MRS with mortgage exposure in California as a percentage of capital accounted for
almost half of WesCorp‘s nearly 1100 percent concentration in privately-issued MRS as
of June 2007. The next closest geographic concentration was a distant 89 percent
concentration in Florida.

We did not determine why WesCorp allowed up to 75 percent of the underlying
collateral of each security to be in any one state. However, we determined that absent
more restrictive NCUA guidelines or regulations, WesCorp was clearly allowed to
determine that such a high concentration in a single state fit within the investment risks
it was willing to undertake to pursue increased profits and remain competitive.

As a result of this significant concentration of mortgage collateral in California, WesCorp
left its balance sheet largely vulnerable to economic conditions in a single state, thereby
increasing its vulnerability to credit, market, and liquidity risks.

Concentration of Privately-Issued RMBS Collateralized with Mortgages Issued,
Originated and Serviced by a Single Financial Institution

OCM staff noted during the June 2007 examination that WesCorp had a large
concentration of RMBS with loans serviced or originated by Countrywide Home Loan,
Inc. (Countrywide). In addition, as an issuer, Countrywide had issued--as a percentage
of capital--the second highest concentration of RMBS in WesCorp‘s privately-issued
RMBS portfolio.

OCM staff also noted that WesCorp management had issuer program limits in place;
however, OCCU examiners and OCM staff indicated they did not have concentration
limits by originator or servicer as of the June 2007 examination. In addition, they
observed during this examination that a large concentration of mortgage-backed
securities were serviced or originated by Countrywide. Specifically:



                                                                                         21
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

          As of June 2007, WesCorp reported that Countrywide originated, as a
           percentage of capital, 200 percent of the underlying collateral within WesCorp‘s
           investment portfolio. We believe this was a significant concentration and
           occurred because, although WesCorp had program limits for its issuers, it did not
           have any restrictions on the percentage of mortgage collateral that could be
           originated by a specific entity and included in a security issue. As a result, not
           only were Countrywide-issued RMBS (collateralized by Countrywide-originated
           mortgages as discussed below) included in WesCorp‘s RMBS portfolio, but
           WesCorp also purchased RMBS issued by other financial institutions that were
           also comprised of Countrywide-originated mortgages. For example, the
           underlying mortgage collateral of a specific security issued by Greenwich
           Capital/Royal Bank of Scotland was collateralized entirely (100 percent) with
           Countrywide-originated mortgages. The next highest originator concentration
           was a distant 120 percent of WesCorp‘s capital. OCCU examiners and OCM
           staff indicated WesCorp had not established concentration limits for originators
           based on any documented research of potential risk exposures.

          WesCorp also reported that as of June 2007, Countrywide was the servicer for
           over 220 percent of the underlying mortgage collateral within its investment
           portfolio. OCCU examiners indicated during the June 2007 examination that to
           be consistent with its portfolio management practices, WesCorp should establish
           servicing concentration limits. When WesCorp approved Countrywide servicer
           limits in August 2007, WesCorp established the limit at 250 percent of WesCorp‘s
           capital. The next highest limit WesCorp established for a servicer was for
           Washington Mutual at 125 percent of capital approved in July 2007. As of
           June 2007, Washington Mutual was already servicing 95 percent of the
           underlying mortgage collateral within WesCorp‘s investment portfolio. Again,
           OCCU examiners and OCM staff indicated WesCorp had not established
           concentration limits for servicers based on any documented research of potential
           risk exposures. We believe WesCorp set servicer limits to accommodate existing
           levels within its portfolio rather than to control those levels.

Furthermore, as of June 2007, Countrywide had issued a large concentration of
WesCorp‘s RMBS (126 percent of WesCorp capital) - the second highest issuer
concentration within WesCorp‘s portfolio.46 We noted that, as applicable, WesCorp
increased issuers‘ limits over time as the actual percentage their RMBS represented of
WesCorp‘s investment portfolio increased. Specifically, we noted that as of April 2003,
the limit for Countrywide as an issuer was 50 percent of WesCorp‘s capital. As of
February 2004, WesCorp had increased the limit to 125 percent of capital at a time
when Countrywide-issued RMBS were valued at more than 75 percent of WesCorp‘s
capital. We noted that as of May 2006, Countrywide‘s RMBS issuances were valued at
more than 117 percent of WesCorp capital. By August 2006, WesCorp had again
increased Countrywide‘s limit as an issuer--to 150 percent of WesCorp‘s capital. We
found no strategic rationale for or a risk assessment to justify the increases. Therefore,

46
     The highest issuer concentration as of June 2007 was valued at 135 percent of WesCorp‘s capital.

                                                                                                        22
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

we believe these increases were likely a function of WesCorp‘s ongoing investment
purchases approaching its previously established issuer program limits.

We believe that in having such a significant concentration of RMBS originated, issued
and serviced by a single financial institution, WesCorp exposed its own balance sheet to
the economic viability of that single entity as a business enterprise, including the
pressures that a company may face to remain afloat in changing economic
environments.47 Those pressures could impact the quality of underlying collateral within
a security or the quality of the servicing of the collateral within the security.

Concentration of Privately-Issued RMBS in a Subordinated Category

NCUA determined in April 2009 that WesCorp had a large concentration--over
one-third--of mezzanine securities backed by Alt-A and Option ARM (negative
amortization) loans. In the simplest terms, mezzanine securities insulate more senior
securities within the bond structure by absorbing any losses before they reach the
senior securities.48 See ‗Summary of RMBS Markets‘ starting on page 4 above, which
provides information on RMBS tranches, losses and credit enhancement. In review, the
primary method of credit enhancement is subordination through which the holders of the
more senior tranches are paid prior to the more junior (or subordinate) tranches.
Furthermore, the next most senior tranches are the mezzanine tranches, which carry
higher risk and pay a correspondingly higher interest rate. The most junior tranche in
the structure was called the equity or residual tranche and was set up to receive
whatever cash flow was left over after all other tranches had been paid. These
tranches, which were typically not rated, suffered the first losses on any defaults of
mortgages in the pool. The following figure (Figure 1) illustrates and explains how
losses and cash flows are applied to tranches.49




47
   For example, Bank of America acquired troubled Countrywide on January 11, 2008. At the time, Countrywide held
one in six home loans in the U.S. and was the nation's largest mortgage servicer.
48
   Despite the support role of these mezzanine securities, they were rated AAA (or equivalent) at issuance.
49
   The percentages used are for illustration purposes only.

                                                                                                             23
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19




                         Cash Flows
                                                                                  The Super-Senior security
                                                                                 has 15.8% subordination at
                                                                                 issuance (9.4% mezzanine
                                                   84.2% Super-                     and 6.4% subordinate
                                                  Senior Security                        securities).
                                                       (AAA)

                                                                            The Mezzanine security only has
                                                                            6.4% subordination at issuance.
                                               9.4% Mezzanine             Once losses exceed the subordinate
                Losses




                                                  Security                security (below), these securities will
                                                   (AAA)                               take losses.



                                                                         This subordinate tranche absorbs the
                                            6.4% Subordinate          losses first. The losses then flow up to be
                                                 Security                    absorbed by the next tranche.
                                                (AA to B)


                                      Figure 1: How Losses are Applied to Security Tranches.

NCUA also determined in April 2009 that: (1) losses for Alt-A and Option ARM loans
were projected to exceed the initial AAA subordination in many deals; and (2) due to
their first loss position within the AAA portion of the bond, many of WesCorp‘s
mezzanine securities were expected to incur losses in excess of 50 percent of the
remaining principal.

Concentration of Privately-Issued RMBS with Higher Risk Mortgage Collateral

WesCorp pursued a strategy of purchasing privately-issued RMBS collateralized by
sub-prime and Alt-A residential mortgage loans which we believe reflected relaxed
lending standards. Specifically, we determined the underlying collateral was comprised
largely of sub-prime and Alt-A mortgages underwritten with risky loan terms or
characteristics. Using NCUA-provided data valued as of December 2008, WesCorp‘s
RMBS portfolio classified as Alt-A and sub-prime was $13.7 billion and accounted for 60
percent of the total $22.7 billion investment portfolio and 87 percent of the $15.8 million
privately-issued RMBS segment of the portfolio. Consequently, WesCorp‘s investment
portfolio of RMBS exposed WesCorp‘s balance sheet to significant credit and market
risk.50

We found it concerning that NCUA would (appropriately) issue warnings and guidance
to its Federally Insured Credit Unions in 2005 and 2006 regarding higher risk mortgage
loans (see ―Background‖ section of this report), but WesCorp invested heavily in

50
  We noted there is a perspective in the industry that indicates [mortgage] originators have less incentive towards
credit quality and greater incentive towards loan volume since they do not bear the long-term risk of the assets they
have created and may simply profit by the fees associated with origination and securitization.

                                                                                                                    24
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

securities collateralized by these same higher risk mortgage loans that created
exposure to increased credit risk. We recognize that part of the securitization and
ratings process includes credit enhancements51 to mitigate the risk of potential losses to
the investor (as discussed in the Background section on pages 5 through 6). We also
understand that while WesCorp considered credit enhancements in each of its purchase
decisions, we believe WesCorp, in its efforts to increase investment yields to remain
competitive, should have been more vigilant about investing so heavily in higher risk
residential mortgage loans taken out by borrowers with the questionable ability to repay
the mortgages.

We obtained a listing of 888 securities WesCorp held as of December 2008 valued at
$22.7 billion, and identified 681 valued at $15.8 billion as privately-issued securities
linked to the residential real estate market (i.e., MRS, ABS, HELOC, Home Equity
seconds, and CDOs as presented in Table 2 earlier in the report).

We reviewed 176 of the 681 RMBS and determined that with many of the securities the
borrowers and underlying mortgage collateral were approved with higher risk loan terms
and characteristics. These securities included 134 RMBS classified as Alt-A and 32
classified as sub-prime. The risky terms and characteristics included such aspects as
adjustable rate mortgages with payment option52, interest only, and negative
amortization53 features, combined in some cases with high (Combined) LTVs ((C)LTVs),
less than prime borrower credit scores, and reduced requirements for borrowers to
document/prove their capacity to repay the loans (i.e., poor documentation
requirements).54 In addition, we identified 107 of these securities that included ―silent
second‖ mortgages and a few securities collateralized with ―scratch and dent‖
mortgages (see below for an explanation of these terms and practices). The following
subsections address our findings in each of these areas:

        Poor Documentation Requirements: We determined each of the 176 WesCorp
        securities we reviewed were backed by mortgages approved with at least one of
        the following borrower documentation requirements:

                Stated Documentation55 – 164 securities. We found that on average, 41
                 percent of the mortgage pool of each these securities were approved
                 based on stated income documentation requirements (ranging from one
                 percent to 95 percent of the underlying collateral).
51
   Credit enhancements are techniques used to improve the credit rating of securities, generally to get investment
grade ratings from a bond rating agency and to improve the marketability of the securities to investors.
52
   A payment-option ARM (Option ARM) is an adjustable-rate mortgage that allows the borrower to choose among
several payment options each month. The options typically include: (1) a traditional payment of principal and
interest; (2) an interest-only payment; and (3) a minimum (or limited) payment that may be less than the amount of
interest due and may not reduce the amount owed on the mortgage.
53
   Negative amortization occurs when the borrower only makes the minimum payment each month. As a result, the
payment will not reduce the amount the borrower owes and it may not cover the interest due. The unpaid interest is
added to the amount owed on the mortgage, and the mortgage loan balance increases. Therefore, even after making
many payments, the borrower could owe more than they did at the beginning of the loan.
54
   NCUA officials determined that as of December 31, 2008, nearly 30 percent ($6.7 billion) of WesCorp‘s privately-
issued RMBS were Option ARMs (see Table 2 earlier in the report).
55
   We included ―stated income‖, ―stated income verified assets‖, and ―stated income state assets in this category.‖

                                                                                                                25
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19



              Limited or Reduced Documentation – 98 securities. We found that on
               average, 50 percent of the mortgage pool of these securities were
               approved under these documentation requirements (ranging from one
               percent to 93 percent of the collateral).

              No Documentation – 50 securities. We found that on average, 21 percent
               of these securities‘ mortgage pools were approved without any
               documentation being required (ranging from two percent to 61 percent of
               the collateral).

       Poor Documentation Combined with Other Higher Risk Mortgage Terms and
       Characteristics: We determined that the securities WesCorp purchased included
       the following combinations of higher risk loan terms and characteristics:

              More than 90 percent of the 176 securities (160) we reviewed that
               included borrowers approved with poor documentation requirements also
               included exotic mortgage collateral (i.e., adjustable rate mortgages that
               included payment option, interest only, or negative amortization features).

              Nearly 50 percent of the securities (87) combined poor borrower
               documentation requirements with (C)LTVs greater than 80 percent.

              Approximately 40 percent of the securities (71) included borrowers
               approved under poor documentation requirements combined with (C)LTVs
               greater than 80 percent and funded by exotic mortgages.

              Seventeen percent of the securities (30) included borrowers approved with
               poor documentation requirements and lower credit scores combined with
               (C)LTVs greater than 80 percent.

       ―Silent Second‖ Mortgages: As mentioned above, we specifically selected and
       reviewed 107 (16 percent of the 681) privately-issued RMBS WesCorp held as of
       December 2008 that included collateral linked to silent second mortgages. A
       silent second mortgage occurs when a buyer of a property borrows the down
       payment from the seller through the issuance of a non-disclosed second
       mortgage. The primary lender believes the borrower has invested their own
       money in the down payment, when in fact, it is borrowed. The second mortgage
       may not be recorded in order to further conceal its status from the primary lender.
       The Federal Bureau of Investigation (FBI) listed this practice in its Financial
       Crimes Report to the Public (for fiscal years 2005, 2006 and 2007) as a common
       mortgage fraud scheme. Some of the securities we reviewed did not indicate the
       percentage of the first lien mortgage collateral in the pool linked to silent
       seconds. However, where a percentage was provided, it ranged between two
       percent up to 92 percent of the collateral.


                                                                                        26
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

        ―Scratch and Dent‖ Mortgages: A ―scratch and dent" mortgage is one that has
        any one or combination of defects stemming from: (1) originations made outside
        a lender's implemented credit guidelines; (2) deficiencies in loan documentation;
        (3) errors made in following regulatory compliance laws; (4) irregular payment
        history; or (5) borrower defaults. These mortgages may also include loans to
        borrowers who have filed for bankruptcy (in the past or after the subject loan was
        made), borrowers currently in the foreclosure process, or loans found to be
        fraudulent after closing (occupancy, income, employment, etc.). In addition, this
        term has in the past primarily referred to loans that were either ―sub-performing,‖
        ―re-performing,‖ or ―non-performing‖ in their cash flows/payments.

        We identified very few (11) securities partially collateralized with ―scratch and
        dent‖ mortgages.56 However, we found it unsettling that the ratings process
        could allow for rating securities backed by mortgages of such low quality in the
        highest investment grade (AAA). For example, one of the most revealing credit
        memos WesCorp used to justify the purchase of a AAA-rated RMBS indicated
        the underlying mortgages were classified as "scratch & dent" for the following
        reasons:

                             o Past delinquencies           35 percent

                             o Underwriting
                               exceptions                   27 percent

                             o Appraisal Variance           21 percent

                             o Modified Loan                5 percent

                             o Bankruptcy Plan              3 percent

                             o Other (forbearance
                               plan, cured
                               documentation, in
                               bankruptcy)                  1 – 9 percent

We reviewed a sample of the credit memoranda WesCorp used to assess and justify
the purchase of the privately-issued RMBS. 57 We determined that the investments
were all rated AAA or AA. We also determined that WesCorp did not specifically or
solely rely on the NRSRO ratings. WesCorp‘s justifications included reviews of the
strength of the underlying collateral, underwriting quality, and the strength of credit
enhancements. It was clear (in reviewing some of the credit memoranda) that WesCorp
counted, where applicable, on securities paying off through their full lives before
borrower payments associated with interest-only or negative amortization features

56
  We did not include these securities in the 176 we reviewed.
57
  The credit memoranda we reviewed supported WesCorp‘s purchase of 212 of the 681 privately-issued RMBS held
as of December 31, 2008.

                                                                                                         27
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

increased and adversely impacted a borrower‘s ability to continue to pay on the
mortgage. A corporate examiner who served as an examiner-in-charge of WesCorp
independently indicated that WesCorp management believed they would be divested of
the RMBS prior to any payment shocks in the underlying collateral. It is also clear that
credit enhancements did not protect WesCorp‘s RMBS portfolio from losses we believe
were directly associated with poor quality underlying collateral resulting from loose
underwriting standards.

Considering our review of the Credit Memos WesCorp used to justify the purchase of its
RMBS and our analysis of the RMBS collateral, we can only conclude that WesCorp
management and staff may have given more weight to the credit ratings, albeit flawed,
and (where applicable) to the RMBS fully paying off, than to their own rational
assessment of the actual risks presented by the underlying residential real estate
mortgage collateral, borrower qualifications, and WesCorp‘s increasing exposure to the
residential real estate market.

More importantly, WesCorp management‘s aggressive investment strategy resulted in
various and significantly higher risk concentrations and left WesCorp vulnerable to
significant credit, market and liquidity risks. Specifically, NCUA determined that:

        WesCorp had substantial unrealized losses in its investment portfolio.
         Specifically, as of December 31, 2008, WesCorp‘s total investment portfolio had
         incurred almost $3 billion in unrealized losses, including $1.7 billion in net
         unrealized losses and $1.3 billion in unrecorded investment devaluations. Taking
         into consideration WesCorp‘s total investment devaluations (including recorded
         net unrealized losses and unrecorded investment devaluations), 150 percent of
         WesCorp‘s capital was at risk.

        WesCorp was economically insolvent. Specifically, by March 2009, NCUA
         determined:

             o Losses embedded in WesCorp‘s securities portfolio had significantly
               eroded its net economic value (NEV), which had deteriorated to negative
               $1.89 billion as of December 2008. As a result, WesCorp‘s asset fair
               values could not support its shares and liabilities. As of February 2009,
               NEV decreased by another $1.8 billion.

             o When WesCorp‘s other than temporary impairments (OTTI) was produced
               ($740 million), approximately 90 percent of WesCorp‘s retained earnings
               were impaired.58


58
  NCUA indicated that, subject to the provisions of Financial Accounting Statement 115, which became effective
December 1993, if it is probable a corporate credit union will be unable to collect all amounts due according to the
contractual terms of a debt security not impaired at acquisition, an other-than-temporary impairment (OTTI) shall be
considered to have occurred. Therefore, if the decline in fair value is determined to be an OTTI, the cost basis of the
individual security(s) shall be written down to fair value as a new cost basis and the amount of the write-down shall be
realized in earnings.

                                                                                                                    28
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

           o Almost half of WesCorp‘s investment portfolio was comprised of securities
             below investment grade. Using NRSRO ratings as of February 23, 2009,
             $12.1 billion, or 53.5 percent, were rated investment grade and $10.5
             billion, or 46.5 percent, were rated non-investment grade when using the
             lowest published rating by Standard and Poor‘s, Moody‘s or Fitch.

      WesCorp was no longer able to adequately provide liquidity. Specifically, the
       liquidity value of nearly 90 percent of WesCorp‘s balance sheet was severely
       distressed. Consequently, management was unable to reposition the balance
       sheet through sales of securities without incurring irrecoverable losses. In
       addition, the ability to use these securities as collateral for borrowings had been
       significantly diminished. Therefore, the vast majority of WesCorp‘s balance
       sheet could no longer be effectively used to meet daily funding needs. WesCorp
       became increasingly dependent on external and government-guaranteed funding
       sources.

Because NCUA ‗Rules and Regulations‘ does not provide corporates with specific limits
for concentrations of credit risk, NCUA, by default, leaves it entirely up to each
corporate to determine their risk levels/limits in their policies. Clearly, this allowed
WesCorp to build significant and excessive concentrations of securities in a single
market sector, within a single state, and linked to a single financial institution.




                                                                                       29
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

B. NCUA Supervision of Western Corporate Federal Credit Union

We determined OCCU examiners did not adequately and aggressively address
WesCorp‘s increasing concentration of privately-issued Residential Mortgage-Backed
Securities (RMBS) and the increasing exposure of WesCorp‘s balance sheet to credit,
market, and liquidity risks. Specifically, we determined OCCU examiners did not
critique or respond in a timely manner to WesCorp‘s growing concentrations of
privately-issued RMBS in general and in particular RMBS: (1) backed by higher risk
mortgage collateral; (2) concentrated in California; and (3) issued, originated, and
serviced by Countrywide. This occurred because the staff did not have the appropriate
regulatory support--in the form of more specific investment concentration limits--to
address the growing and risky concentration. As a result, OCCU examiners did not
have the regulatory leverage to limit or stop the growth of WesCorp‘s purchase of
privately-issued RMBS, which would have likely mitigated WesCorp‘s severely
distressed financial condition and expected loss as a result of the extended credit
market dislocation, and thus averted NCUA‘s ultimate conservatorship of WesCorp.

NCUA ‗Rules and Regulations‘ requires corporates to operate according to a credit risk
management policy that is commensurate with the investment risks and activities it
undertakes. At a minimum, corporates must implement a credit risk management policy
that addresses concentrations of credit risk (e.g., originator of receivables, insurer,
industry type, sector type, and geographic).

WesCorp‘s investment policy and procedures provided for the following concentration
limits:

      Up to 1,950 percent of WesCorp‘s capital could be invested in private-label
       securities backed by residential mortgages.

      Up to 75 percent of the underlying collateral of domestic mortgage-related
       securities could be located in any one state.

      Maximum concentrations per issuer.

In addition, NCUA ‗Rules and Regulations‘ requires that: (1) all investments, other than
in a corporate credit union or CUSO, must have an applicable credit rating from at least
one nationally recognized statistical rating organization (NRSRO) and (2) investments
with long-term ratings must be rated no lower than AA– (or equivalent), and investments
with short-term ratings must be rated no lower than A–1 (or equivalent) at the time of
purchase. However, the NCUA Corporate Examiner‘s Guide advises examiners that:

      A credit rating is not a substitute for prudent due diligence and should only be
       considered as one factor in an investment decision. The ratings and other
       opinions issued by rating agencies are not recommendations to buy securities
       and there is not a warranty on the accuracy, timeliness, completeness or fitness
       of the information provided. It is simply one tool to assist an investor in making

                                                                                        30
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

         investment decisions. Analysts are expected to understand the implications and
         conclusions of a rating agency‘s research and form an independent judgment.

        Credit risk managers must be mindful that credit ratings are generally a lagging
         indicator.

        There is a danger corporates may focus upon high credit ratings and simply
         consider the improbability of default. Corporates need to consider how
         concentrations of credit risk will change when market or credit conditions change.
         Failing to recognize the impact of credit events other than an event of default
         ignores a major component of risk.

        Failure to manage concentration risk or adequately diversify the portfolio may
         give rise to excessive liquidity risk. Corporates must be especially mindful of
         liquidity when making investment decisions since investment portfolio(s) are the
         primary source of funds to meet ongoing and contingent liquidity demands.

Furthermore, NCUA guidance advises that when combined with a potentially overpriced
real estate market, the impact of exotic adjustable rate mortgages increases risk
tremendously, especially if interest rates rise and the rate of home appreciation flattens
or declines.

Concentrations of Privately-Issued RMBS (Collateralized by Higher Risk Mortgages)
Not Adequately Addressed

We determined that although OCCU examiners recognized the increasing concentration
of privately-issued RMBS in WesCorp‘s investment portfolio early on, they did not
respond in a timely manner to the increasing exposure of WesCorp‘s balance sheet to
credit, market, and liquidity risks. Specifically, we determined OCCU examiners did not
require or even advise WesCorp management to limit or reduce its concentration of
privately-issued RMBS, or its concentration of RMBS backed by Alt-A and sub-prime
mortgage collateral and collateral comprised of exotic adjustable rate mortgages.

Charts 3 and 4 below illustrate the concentration of WesCorp‘s Privately-Issued RMBS
in terms of value (Chart 3) and as a percentage of capital (Chart 4) during select periods
between July 2003 and December 2008. We noted that as of June 2007, around the
start of the credit market dislocation, nearly 85 percent of WesCorp‘s credit sensitive
securities59 were AAA-rated and approximately 15 percent were AA-rated. By February
2008, less than one percent of the investments were rated less than AA. However, by
February 23, 2009, nearly 47 percent of WesCorp‘s securities were rated non-
investment grade (i.e., BB and below).60



59
  WesCorp‘s credit sensitive securities included private-label ABS/MRS, CMBS, and CDOs.
60
   These ratings are based on the lowest of the S&P, Moody‘s, or Fitch-assigned ratings. Using only WesCorp‘s
primary NRSRO (S&P) ratings, 23 percent of the securities were below investment grade.

                                                                                                                31
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19


                       Chart 3: Concentration of Privately-Issued RMBS versus
                                         Total Investments
                                             ($ Billions)

                    Privately Issued Mortgage-Related Securities           Total Investments (Book Value)
             $35
  Billions




             $30
             $25
             $20
             $15
             $10
              $5
              $-




                         Credit Market
                          Dislocation
                            Begins




                   Chart 4: Ratio of Privately-Issued Mortgage-Related Securites and
                                    Total Investments to Capital (%)
                           Privately Issued MRS to Capital         Total Investments to Total Capital




                                                                                                            32
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

We reviewed WesCorp examination files and reports from July 2003 through February
2008 and determined that although OCCU examiners observed the ever-growing
concentration of privately-issued RMBS starting with the July 2003 examination, they
did not criticize or take action to address or limit the concentration until the February
2008 examination--well after the credit market dislocation began in mid 2007.
Specifically, OCCU examiners continually indicated WesCorp‘s investment portfolio was
well diversified and its exposures and credit limits were within regulatory constraints.
Also, OCCU examiners informed us WesCorp management knew it was in compliance
with NCUA requirements. Therefore, the examiners knew they had limited, if any
options to address the concentrations. OCCU examiners did not issue a finding or
Document of Resolution (DOR) to address this concentration until February 2008, after
credit and liquidity issues began to surface. For example:

      During the July 2005 examination, NCUA corporate OCCU examiners indicated
       that WesCorp‘s investments were skewed heavily toward real estate secured
       products with one of the most significant portfolio changes being a continued
       increase in private mortgage-related issues--up by 54 percent since April 2003.
       However, OCCU examiners also indicated WesCorp continued to purchase top
       quality products and had taken appropriate steps to minimize overall credit
       exposure, including diversification across issuers and geographic areas.
       Furthermore, OCCU examiners indicated all reported RMBS exposures
       conformed to the requirements of Section 704.6 of the NCUA Rules and
       Regulations.

      During the July 2006 examination, OCCU examiners indicated that exposure to
       real estate as a collateral was increasing and private-label MRS had increased
       from 46 percent to 60 percent of total investments since the July 2005
       examination. OCCU examiners indicated the portfolio was of high quality with
       over 80 percent of securities rated AAA, and several levels of diversification
       mitigated risk, i.e., geographical concentration limits were in place, single issuer
       exposures were substantially under regulatory limits, and mortgage types,
       collateral types, and borrower qualifications were varied. In addition, OCCU
       examiners indicated all established limits conformed to the requirements of
       Section 704.6 of the NCUA Rules and Regulations.

      During the June 2007 examination, OCCU examiners indicated the most
       substantive change in WesCorp‘s investment portfolio included mortgage-backed
       securities, with private-label mortgage-related securities representing 69 percent
       of the portfolio. However, OCCU examiners and OCM staff indicated that:
       (1) overall the portfolio was generally well diversified by industry and sector; (2)
       WesCorp was in general compliance with the requirements of Sections 704.6
       and 704.10 of the NCUA Rules and Regulations; and (3) purchases were
       focused on higher quality, AAA-rated sectors.

In addition, we noted that during the July 2003 and through July 2006 examinations,
corporate OCCU examiners never questioned the quality of the mortgages

                                                                                          33
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

collateralizing WesCorp‘s RMBS portfolio. In addition, OCM staff did not question the
quality of collateral during the June 2007 examination when they reviewed WesCorp‘s
investment portfolio. 61 Interestingly, we noted NCUA issued lending guidance to its
federally-insured credit unions in 2005 (and additional guidance in 2006) in regards to
(1) managing the credit risks created by relaxed underwriting standards associated with
home equity loans and; and (2) increasing risks in mortgage lending via exotic
adjustable rate mortgages and lenient credit and underwriting standards. Nevertheless,
neither NCUA officials nor OCCU examiners warned WesCorp about the risks
associated with investing heavily in privately-issued RMBS backed by these same
higher risk mortgage products until April 2007--shortly before the credit market
dislocation began.62 We noted that as of December 31, 2008, nearly 70 percent of
WesCorp‘s total investment portfolio was comprised of privately-issued RMBS ($15.8
billion), with 26 percent of the RMBS portfolio classified as sub-prime-related securities
valued at $4.1 billion and 60 percent as Alt-A-related securities valued at $9.5 billion.

As discussed in Section A, we reviewed a sample of these securities and determined
that in many cases, the securities were collateralized with mortgages approved with
higher risk terms and characteristics. Specifically, the mortgages or borrowers were
approved with some combination of drastically reduced documentation requirements
(e.g., stated income, or limited/reduced/no documentation); exotic mortgages (e.g.,
adjustable rate mortgages with payment option, interest-only, and negative amortization
features); and associated with ―silent second‖ mortgages63. In addition, we identified a
few securities WesCorp purchased that were classified as ―scratch and dent‖ (see
Section A, pg 24, for an explanation of this security type). Furthermore, WesCorp also
invested in Collateralized Debt Obligations (CDOs)64 collateralized partially with non-
investment grade real estate-related securities.65 For example, one CDO WesCorp
owned (that was collateralized with multiple security types including RMBS) indicated
that ―non-investment grade collateral is limited to RMBS.‖ Within this CDO, 19 percent
of the portfolio was below investment grade. Another CDO WesCorp owned was
collateralized primarily with residential real estate-related securities in which nearly 38
percent of these underlying securities were rated below investment grade.

Finally, during the February 2008 examination, OCCU examiners indicated that past risk
tolerances and investment strategies resulted in elevated credit risk concentrations,
limiting flexibility in the balance sheet. To address this, OCCU examiners issued a DOR
item indicating that although portfolio sector diversification limits were within regulatory
maximums, WesCorp‘s current and allowable RMBS concentrations were significant,
thereby increasing its exposure to market, credit, liquidity, and reputation risks while
61
  Prior to the June 2007 examination, OCM staff assistance was limited to reviews of Asset/Liability
Management. The June 2007 examination marked the first involvement of OCM staff in reviews
specifically addressing the concentration and quality of WesCorp‘s investment portfolio.
62
   NCUA Office of Corporate Credit Unions issued a letter to corporates (Credit and Market Value Risks of Mortgage-
Backed Securities (MBS), April 18, 2007) noting concerns with MBS having underlying sub-prime or nontraditional
mortgages.
63
   We discussed ―silent second mortgages‖ in detail on page 24 of Section A.
64
   Collateralized debt obligations (CDOs) are a type of structured asset-backed security (ABS) whose value and
payments are derived from a portfolio of fixed-income underlying assets.
65
   As of December 2008, WesCorp held 10 CDOs valued at $543 million.

                                                                                                                34
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

limiting balance sheet flexibility. Despite this issue, we noted that OCCU examiners
were touting the ―overall fundamental quality‖ of WesCorp‘s investment portfolio--noting
that WesCorp‘s portfolio remained vastly comprised of AAA securities. On the other
hand, OCCU examiners simultaneously noted that confidence in credit rating agencies
had waned.

Although the level of WesCorp‘s RMBS never threatened WesCorp‘s self-imposed limit
of 1,950 percent, we believe that not only was WesCorp‘s concentration of RMBS
excessive, but also the limits themselves were excessive. Clearly, (1) NCUA‘s focus on
investment ratings and (2) the absence of more stringent concentration guidelines by
NCUA facilitated WesCorp‘s excessive limits for and concentrations of privately-issued
RMBS. In addition, we believe that because of the focus on credit ratings provided by
the credit rating agencies, OCCU examiners had limited leverage to criticize WesCorp
management‘s investment choices despite the questionable quality of the underlying
mortgages. In view of the SEC findings regarding the lack of due diligence by the rating
agencies on the quality of underlying RMBS collateral (see Background section of this
report), we believe there should be little surprise that the credit market dislocation
severely distressed WesCorp‘s balance sheet.

Concentrations of RMBS by Geography, Issuer66, Originator67, and Servicer68

We determined OCCU examiners either did not recognize or did not take issue with the
potential risk associated with WesCorp‘s geographic, issuer, originator, and servicer
limits or concentrations early on. As a result, WesCorp‘s concentrations of RMBS with
collateral in a single state – California – became excessive. In addition, a large
concentration of WesCorp‘s RMBS was associated with a single financial entity -
Countrywide Home Loans, Inc. (Countrywide). As of the annual examination periods
between August 2004 and February 2008, Countrywide had the highest single
concentrations as originator and servicer of the underlying mortgage collateral within
WesCorp‘s RMBS portfolio. Countrywide was also the highest issuer of securities in
WesCorp‘s portfolio except for as of the June 2007 examination date when it was
second behind Washington Mutual Mortgage Services Corporation.

Specifically, we noted that between August 2004 and February 2008, the portion of the
RMBS portfolio having collateral in California ranged between 45 percent and 67
percent of WesCorp‘s entire concentration of privately-issued RMBS. Chart 5 below
illustrates WesCorp‘s concentrations of RMBS with collateral in California between the
2004 and 2008 examination dates, compared to WesCorp‘s privately-issued MRS as a
percentage of capital.




66
   An issuer is the entity that issues a security.
67
   An originator is an entity that works with a borrower to complete a mortgage transaction.
68
   A mortgage servicer‘s functions include collecting mortgage payments and penalties, maintaining the mortgage
records, paying the property insurance and taxes and may include settling mortgage defaults.

                                                                                                                  35
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19


                      Chart 5: WesCorp RMBS with Underlying
                        Collateral Concentrated in California
                                  (As a percentage of Capital)




                                                          1060.25%              RMBS
       1200.00%                                                                 Collateral in
                                              789.99%                           California
                     617.75%      638.61%
        900.00%                                                       636.00%
        600.00%                                                                 Privately-
                                                                                Issued MRS
        300.00%

          0.00%
                  Aug-04       Jul-05       Jul-06      Jun-07       Feb-08




In addition, we noted that although WesCorp management had issuer limits in place,
they did not have limits in place for originators or servicers. Furthermore, with some
issuers, management increased issuer limits over time with no evidence of a
corresponding rationale or risk assessment. Specifically, as discussed in Section A:

       Although WesCorp tracked concentrations by originators, it did not have limits on
        originator concentrations. Consequently, a financial institution (Institution A)
        could issue securities with mortgages it originated, and another institution
        (Institution B) could also issue a security that was 100 percent collateralized with
        mortgages originated by institution A. In the case of Countrywide, this allowed
        the concentration of securities with Countrywide-originated mortgages to account
        for 200 percent of WesCorp‘s capital as of June 2007.

       Although WesCorp tracked concentrations by servicer, it did not have limits on
        servicer concentrations.

        o OCCU examiners and OCM staff recognized this during the June 2007
          examination and OCCU examiners addressed the issue in a finding; however,
          by that time Countrywide was already the servicer for over 220 percent of the
          underlying mortgage collateral within WesCorp‘s investment portfolio as a
          percentage of capital.

        o We noted that the December 2007 ALCO package indicated WesCorp
          management approved Countrywide servicer limits in August 2007 at 250
          percent of WesCorp‘s capital.



                                                                                                36
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

      WesCorp had issuer limits in place as a percentage of capital. However, we
       observed that, as applicable, WesCorp periodically increased issuers‘ limits over
       time when the level of a particular issuer‘s securities it held increased.
       Specifically:

       o We noted that as of April 2003, the limit for Countrywide as an issuer was 50
         percent of WesCorp‘s capital.

       o By February 2004, WesCorp had increased the limit to 125 percent of capital,
         and its exposure to Countrywide-issued RMBS were valued at more than 75
         percent of WesCorp‘s capital.

       o As of May 2006, WesCorp‘s exposure to Countrywide-issued RMBS were
         valued at more than 117 percent of WesCorp‘s capital.

       o By August 2006, WesCorp had again increased Countrywide‘s limit as an
         issuer--to 150 percent of WesCorp‘s capital, and its exposure to Countrywide
         was 124 percent.

       o As of June 2007, Countrywide-issued RMBS were valued at 126 percent of
         WesCorp‘s capital.

Chart 6 below illustrates WesCorp‘s holdings (as a percentage of capital) of
Countrywide-issued RMBS and RMBS collateral originated or serviced by Countrywide
between August 2004 and February 2008:


                          Chart 6: Countrywide Issuer, Originator,
                                    and Servicer Levels


       250.00%

       200.00%
                                                                                                     Issuer
                                                                             200%




        150.00%
                                                            184%




                                                                                                     Originator
                                                                                              177%
                                          130%




        100.00%                                                                                      Servicer
                              81%




         50.00%
                                                     124%
                        72%




                                                                      126%
                                    87%




                                                                                       104%




           0.00%

                    Aug-04
                               Jul-05
                                                 Jul-06
                                                                   Jun-07
                                                                                    Feb-08




                                                                                                                  37
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19



Despite WesCorp periodically increasing issuer limits without apparent rationale, we did
not find evidence that OCCU examiners questioned or took issue with the increasing
limits. More importantly, despite the growing concentrations of RMBS associated with
California and with Countrywide as the issuer, originator and servicer, we found no
evidence OCCU examiners took notice of or questioned the concentration levels until
the June 2007 examination—at about the start of the credit market dislocation.
Specifically, OCCU examiners issued a finding during the examination regarding the
lack of limits based on potential risk exposures from servicers and originators.
However, this occurred after NCUA issued a letter to corporates in April 2007 advising
them to control material exposures to a single originator or servicer.

NCUA ‗Rules and Regulations‘ focuses on investment ratings and only requires
corporates to address concentrations of credit risk in their policy, leaving it entirely up to
each corporate to determine their risk levels/limits. This general requirement limited
OCCU examiners options in addressing WesCorp‘s investment strategy and growing
concentrations in a single market sector, within a single state, and linked to a single
financial institution. If NCUA had more specific concentration limits in place, we believe
OCCU examiners would have likely been able to mitigate the conditions that led to
WesCorp‘s excessive concentration of privately-issued RMBS and the expected loss to
the Stabilization Fund.

Recommendation: NCUA should provide corporate credit unions with more definitive
guidance on limiting investment portfolio concentrations by security type (i.e., agency-
backed versus non-agency backed securities), sector type (e.g., residential real estate
versus non-residential real estate), geography (e.g., less concentration in a single
state), by supporting collateral (e.g., sub-prime; Alt-A; prime; adjustable rate mortgages
with payment option, interest-only, and negative amortization features; etc.), and by
issuer, originator, and servicer.

Auditor’s Note: On September 24, 2010, the NCUA Board took several actions to reform
the corporate system under a stronger regulatory framework. One of those actions was
to finalize major revisions to Part 704, NCUA‘s rule governing corporate credit unions.69
The final rule includes new limitations on corporate investments and credit risks, as well
as asset-liability management controls, so that high concentrations of the types of
investments that caused the corporate crisis will never be permitted again. Specifically,
the final rule includes the following:

        Prohibits investments in private label residential mortgage-backed securities
         (RMBS) and subordinated securities.70

        Prohibits investments in collateralized debt obligations (CDOs).


69
  The new corporate rule will become effective 90 days after it is published in the Federal Register.
70
  Private label RMBS and subordinated securities, together, caused almost all of the credit losses in the corporate
system since 2007.

                                                                                                                      38
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

        Reduces the single obligor limits from 50 percent of capital to 25 percent of
         capital, with slightly higher limits for mutual fund investments.

        Imposes specific concentration limits by investment sector.71,72

        Eliminates Part II expanded authority, thus making ―A-― the lowest possible rating
         for an NRSRO-rated investment purchased by a corporate with expanded
         investment authority.

        Requires that a corporate examine the NRSRO rating from every NRSRO that
         publicly rates a particular investment and only employ the lowest of those ratings.
         It further requires that at least 90 percent of a corporate‘s investments be rated
         by at least two NRSROs.

Agency Response: NCUA management agreed that (1) WesCorp failed due to losses
associated with an excessive concentration of privately-issued residential mortgage-
backed securities (RMBS); (2) WesCorp‘s risk management practices failed to identify
the nature and extent of the concentration and other risks developed in the RMBS
portfolio; and (3) examiners lacked regulatory leverage to enforce limits. In addition,
NCUA management indicated that revisions to the Corporate Credit Union Rule,
approved on September 24, 2010 and addressed in NCUA Letter to Credit Unions
10-CU-20, contain stronger concentration limits and provisions to prevent the purchase
of privately-issued RMBS. We have included management‘s comments in their entirety
in Appendix A.

OIG Response: The OIG concurs with NCUA‘s response.




71
   Sectors include residential mortgage backed securities, commercial mortgage backed securities, student loan
asset backed securities, automobile loan/lease asset backed securities, credit card asset backed securities, other
asset backed securities, corporate debt obligations, municipal securities, money market mutual funds, and an ―all
others‖ category to account for the development of new investment types.
72
   The sector limits are, generally, 1) the lower of 500 percent of capital/25 percent of assets, or 2) the lower of 1000
percent of capital/50 percent of assets (for the less risky sectors).

                                                                                                                       39
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19

Appendix A – NCUA Management Comments




                                                                 40
Material Loss Review of Western Corporate Federal Credit Union
OIG-10-19




                                                                 41
